<html>
<title> - ENGLISH LANGUAGE UNITY ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   ENGLISH LANGUAGE UNITY ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                                H.R. 997

                               __________

                             AUGUST 2, 2012

                               __________

                           Serial No. 112-141

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
75-386                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5730273817342224233f323b277934383a79">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             AUGUST 2, 2012

                                                                   Page

                                THE BILL

H.R. 997, the ``English Language Unity Act of 2011''.............     3

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................    10
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    12

                               WITNESSES

The Honorable Steve King, a Representative in Congress from the 
  State of Iowa
  Oral Testimony.................................................    16
  Prepared Statement.............................................    19
The Honorable Charles A. Gonzalez, a Representative in Congress 
  from the State of Texas
  Oral Testimony.................................................    20
Rosalie Pedalino Porter, Ed.D., Chairwoman of the Board of 
  Directors, ProEnglish
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34
The Honorable Rene Garcia, Florida State Senator, District 40
  Oral Testimony.................................................    42
  Prepared Statement.............................................    45
Mauro E. Mujica, Chairman and CEO, U.S. English, Inc.
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

English language translation of the opening statement of the 
  Honorable John Conyers, Jr., a Representative in Congress from 
  the State of Michigan, and Ranking Member, Committee on the 
  Judiciary......................................................    13
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............    68

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............   126
Spanish language version of the Prepared Statement of the 
  Honorable John Conyers, Jr., a Representative in Congress from 
  the State of Michigan, and Ranking Member, Committee on the 
  Judiciary......................................................   129
Prepared Statement of the Honorable Charles A. Gonzalez, a 
  Representative in Congress from the State of Texas.............   132
Prepared Statement of the American Civil Liberties Union (ACLU), 
  submitted by the Honorable Jerrold Nadler, a Representative in 
  Congress from the State of New York, and Ranking Member, 
  Subcommittee on the Constitution...............................   134


                   ENGLISH LANGUAGE UNITY ACT OF 2011

                              ----------                              


                        THURSDAY, AUGUST 2, 2012

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:40 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trent Franks 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Chabot, Forbes, King, 
Jordan, Nadler, Conyers, and Scott.
    Staff present: (Majority) Paul Taylor, Subcommittee Chief 
Counsel; Sarah Vance, Clerk; (Minority) David Lachmann, 
Subcommittee Staff Director; and Veronica Eligan, Professional 
Staff Member.
    Mr. Franks. Pursuant to notice, the Subcommittee on the 
Constitution meets today to consider H.R. 997, the ``English 
Language Unity Act of 2011.''
    Let me first thank Subcommittee Member Steve King for 
introducing H.R. 997. This legislation currently has 121 
bipartisan co-sponsors.
    The great observer of America, Alexis de Tocqueville, wrote 
that, ``The tie of language is perhaps the strongest and most 
durable that can unite mankind.'' Indeed, only through a common 
language can a diverse people come to understand one another 
and solve problems together. A common language facilitates 
friendships, commerce, and community.
    Yet today, more and more Americans do not share a common 
language. And without a common language, they cannot share 
fully in the American community.
    In 1900, 85 percent of the immigrant community was fluent 
in English, but 100 years later that fluency rate dropped to 68 
percent despite great advancements in communications 
technology.
    The Census Bureau has predicted that by 2044, a majority of 
people residing in the United States will speak a language 
other than English. When a country has more and more immigrants 
who do not share a common language, more and more members of 
those non-English speaking communities tend to keep to 
themselves because they can. They interact less with the 
English-speaking community and form insular communities within 
communities. As a result, they are exposed to fewer and fewer 
social, educational, and business opportunities. And our whole 
Nation suffers.
    H.R. 997 requires that government functions be carried out 
in English with common sense exceptions for communications 
required by concerns related to health and public safety, 
trade, and national security.
    Making English the official language, as a good majority of 
the States have done, would provide the encouragement needed to 
incentivize more immigrants to embrace a common language once 
again.
    English policies are widely popular. According to a May 
2010 Rasmussen Report survey, 87 percent of Americans believe 
English should be our official language. A more recent Harris 
Interactive poll released on July 9, 2012, found that 88 
percent of respondents agree that English should be the 
official language of the United States, including 96 percent of 
Republicans, 83 percent of Democrats, and 89 percent of 
Independents. The results showed 89 percent of males, 87 
percent of females, and 83 percent of Hispanics agree that 
English should be America's official language.
    Making English our official language is also widely 
supported among immigrants. A Zogby poll showed that more than 
three in four immigrants to the United States favored 
legislation making English the official language, as did nearly 
60 percent of first generation and 79 percent of second 
generation Americans.
    As it happens, my own wife is an example of an immigrant 
who feels this way. She came to this country as a teenager, 
from the Philippines. She speaks the better part of four 
languages. But she has said unequivocally that her entire 
family's commitment to learning English as their primary 
language remains the primary reason for the family's success in 
America. In her native country, the population speaks an 
estimated 175 languages. How many languages are used on the 
Philippine election ballots? One. Which language is used? 
English.
    There is a reason for this. Having one unifying language 
that is the most common to all groups is the most efficient way 
to carry out government functions. So many things do, in fact, 
get lost in translation, and this is a risky enterprise when 
dealing with something as basic as the franchise to vote.
    To take a risk of having numerous slight variations for a 
ballot initiative risks the integrity of the initiative. This 
is just one of the many examples why a single language is 
critical; I believe the time has come for America to join the 
other 56 countries who have made English their official 
language. I look forward so much to hearing from our witnesses 
here today.
    And I now yield to the Ranking Member for 5 minutes.
    [The bill, H.R. 997, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Nadler. Thank you, Mr. Chairman. Having already spent 
an extraordinary amount of Committee time and resources in an 
effort to roll back the civil rights of women, persons with 
disabilities, gay and lesbian Americans, and other minorities, 
our majority colleagues are now taking their last opportunity 
to highlight a bill that would place at risk the 24 and a half 
million people in the United States who need language 
assistance from their government in some situations.
    H.R. 997 does nothing to help these individuals learn 
English and to assure that, in the meantime, they are brought 
into the mainstream of American life.
    English is universally acknowledged as the common language 
of the United States. Government proceedings and publications 
are always performed or provided in English, though in some 
instances augmented by other languages when necessary for 
effective communication with the constituents that we serve.
    These additional means of communication do not threaten us 
as a people or a Nation. On the contrary, they prove that 
beyond our common language, what truly unifies us is a shared 
commitment to the principles upon which this Nation was founded 
and flourishes--freedom of speech, equal protection of laws, 
and representative democracy.
    That shared commitment is unquestionably tested at times. 
Efforts to use the force of law to prohibit the use of 
languages other than English are not new, nor is the fact that 
these restrictions often have been put in place because of 
anxiety and distrust of new immigration populations
    In the aftermath of World War I, for example, when anti-
German sentiment was running high and large numbers of 
European, including many German immigrants, were coming to this 
country, some States passed laws prohibiting the teaching of 
any language other than English in their schools.
    My colleagues on this Subcommittee should be familiar with 
the Supreme Court case which struck that law down, Meyer v. 
Nebraska, because it is one of the leading cases establishing 
the fundamental right of parents to guide the upbringing of 
their children, the subject of a recent Subcommittee hearing, 
and a proposed constitutional amendment introduced by our 
distinguished Chairman.
    As the Supreme Court admonished in Meyer, the desire to 
assure that immigrants to this country learn and speak English, 
a claimed purpose both of the law in Meyer and of the bill that 
we are considering today, ``cannot be coerced by methods which 
conflict with the Constitution. A desirable end cannot be 
promoted by prohibited means.''
    The Alaska Supreme Court cited this passage from Meyer in 
Alaskans for Common Language v. Kritz, finding that Alaska's 
requirement that English be used for all government functions 
and acts violates the 1st Amendment. That law, as would H.R. 
997, deprived government officials, agents, and employees of 
the ability to communicate with the public. It also prevented 
individuals from accessing vital information and services from 
the government, prevented effective communication with the 
government, and infringed on the constitutional right to 
petition the government for redress of grievances.
    As the Alaska Supreme Court noted, if the purpose of the 
law truly is to promote, preserve, and strengthen the use of 
English, then creating and funding programs promoting English 
as a second language is a far less restrictive means of 
achieving that goal. This is what our Constitution requires, 
and it is what we as elected officials should demand.
    Laws like H.R. 997, which provide no affirmative support 
for those with limited English proficiency, but as the Alaska 
Supreme Court put it, ``merely create an incentive to learn 
English by making it more difficult for people to interact with 
their government,'' have no place in our constitutional scheme.
    These laws also should trouble us because, while proponents 
claim that their purpose is to unite the Nation, these 
proposals divide us by sending a clear message that no one is 
welcome here until and unless they are fluent in English. But 
this cannot possibly be true. All of us represent multilingual 
communities. The district I represent is home to people who 
speak Spanish, Yiddish, Creole, Russian, Arabic, Hebrew, 
Chinese, Vietnamese, French, Korean, Portuguese, Wolof, 
Ukranian, Italian, and German, to name just a few.
    Our communities work because we have mutual respect for 
each other, our different religions, traditions, cultures, and 
languages, as well as shared values and a common belief in the 
American Dream.
    Unfortunately, there is reason to suspect that proponents 
of English only laws are not interested in ensuring inclusion 
in this American Dream, but instead seek to bar our newest 
immigrants from its achievement. We need look no further than 
experience in Iowa to confirm that this fear is not unfounded. 
Representative King championed legislation in Iowa that is 
nearly identical to H.R. 997 while a member of the State 
legislature. While campaigning for passage of his law in Iowa, 
Representative King said the law would not prohibit government 
usage of other languages, and to illustrate this claim, 
explained that ``If the Storm Lake policy chief wanted to post 
signs in 5 languages, he would be allowed to do as long as one 
of the languages included English.'' Once the law was passed, 
however, Representative King sued the Secretary of State for 
providing online registration forms in other languages in 
addition to forms provided in English.
    H.R. 997 unquestionably poses the same threat to the 
protections for language minorities in the Voting Rights Act, 
particularly given Representative King's efforts to remove 
those protections during our most recent reauthorization of the 
VRA. Perhaps in his testimony, Representative King can clarify 
exactly how H.R. 997 will impact voting rights, and whether his 
provision granting standing for anyone claiming injury the law 
is intended to allow him to sue government officials for the 
usage of language other than English.
    I would also like to hear why Representative King did not 
include in H.R. 997 a provision from his Iowa bill that allowed 
``any language usage required by or necessary to secure the 
rights guaranteed by the Constitution and laws of the United 
States of America, or the Constitution of the State of Iowa.''
    As we consider this bill, let us not forget that we are a 
Nation of immigrants and that this has made us stronger, not 
weaker. As we will hear from our colleague from Texas, 
Representative Charlie Gonzalez, and from Florida State Senator 
Rene Garcia, those who are new to American embrace English and 
learn it as fast and as well as they can. They do so because 
English is the unquestionable gateway to opportunity, but also 
because it allows them to become part of the fabric of this 
great Nation. There simply is no legitimate need for official 
English or English only bills like H.R. 997.
    With that, I yield back the balance of my time.
    Mr. Franks. I thank the gentleman. And I now yield to the 
distinguished Member of the full Committee, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Gracias, Senor Presidente. Bueno, estamos aqui 
otra vez, en este ultimo dia del periodo de sesiones antes de 
regresar a nuestros distritos para mas de un mes, considerando 
legislacion divisiva sobre un problema social que--
desafortunadamente--no tiene posibilidad de convertirse en ley.
    La legislacion que estamos considerando hoy, la ``Ley de la 
Unidad de Idioma Ingles del dos mil y once'' es a la vez mal 
llamada y, yo creo, hara mucho dano a esta nacion.
    H.R. 997 no promovera la unidad, como lo sugiere el titulo.
    Limitando nuestra vida publica a un solo idioma no nos 
haceremos mas unidos. Lo que nos une no es una lengua, pero los 
ideales compartidos que hace los Estados Unidos el pais grande 
y unico que es.
    H.R. 997 excluira a muchas personas de la ciudadania plena, 
haciendo mas dificil la participacion en transacciones simples, 
como conseguir una licencia de conducir o inscriber a sus hijos 
para la escuela, o acceder a otros servicios.
    Excluyera a personas de nuestra democracia, trayendo de 
vuelta las desacreditada--e ilegal--pruebas que una vez mantuvo 
a los pobres, las minorias y los inmigrantes fuera de las 
urnas.
    Esta legislaction esta en contradiccion con nuestra 
historia.
    Somos una nacion de inmigrantes y somos una nacion de 
personas que llegaron aqui hablando muchas diferentes idiomas. 
Lo que mantiene a esta nacion junta son los valores compartidos 
y la creencia compartida en los valores Americanos de libertad, 
democracia e igualdad de oportunidades.
    Hoy en dia, los inmigrantes de Asia o America Latina son 
los objetivos de la demonizacion y la discriminacion. Un dia, 
nuestro pais mirara hacia atras a este periodo con verguenza y 
arrepentimiento.
    Esta legislacion no reconoce que somos, y siempre hemos 
sido, una nacion multilingue.
    Puedo ver ningun efecto--sea cual sea la intencion--ademas 
de excluir a personas de su plena participacion en el sueno 
Americano. Peor aun, la legislacion envia un mensaje de que 
estas personas no son bienvenidos, que son ciudadanos de 
segunda clase.
    Quiero dar la bienvenida a neustros testigos, y espero con 
interes escuchar su testimonio.
    [The English language translation of the opening statement 
of Mr. Conyers follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Franks. The gentleman's time has expired, and I----
    Mr. Scott. I want to make sure that the court reporter got 
all that down. [Laughter.]
    Mr. Franks. I want to thank the gentleman. My wife 
certainly would have understood his statement. As it happens, I 
do not. But I would ask the gentleman in the interest of 
fairness and certainly to Mr. Nadler's district, would you 
repeat that in Yiddish, and Vietnamese, and French as well? 
[Laughter.]
    Mr. Conyers. When is the next hearing, sir?
    Mr. Franks. I suppose----
    Mr. Conyers. I would be delighted to accommodate your 
request.
    Mr. Franks. Nothing would make the point better if we 
conducted all of our debates in different languages. And, I 
suppose that makes the case for this bill better than anything 
else. I certainly appreciate the gentleman's gesture, but it 
does indicate why it would be even more confusing in this place 
than ever if all of us spoke a different language.
    So with that, I would yield to Mr. Forbes. I understand 
that you do not have an opening statement. So I guess we will 
move forward.
    So I will recognize then myself for 5 minutes for 
questions. No, I am sorry. I am sorry. See, I am quite 
confused. Again, the point is made once again.
    So I will now turn to our witnesses. Here we go. All right.
    Let me now introduce the witnesses on our first panel. 
Steve King has represented the Fifth District of Iowa since 
2002. He is also a Member of the Constitution Subcommittee. Mr. 
King is the chief sponsor of H.R. 997, the English Unity Act.
    Charles Gonzalez has represented the 20th District in Texas 
since 1998. He serves currently on the House Committees on 
Energy and Commerce and House Administration. I want to thank 
you both so much for appearing before us today.
    Each of the witnesses' written statements will be entered 
into the record in its entirety. I would ask that witness 
summarize his testimony in 5 minutes or less. And to help you 
stay within that time. there is a timing light on your table. 
When the light switches from green to yellow, you will have 1 
minute to conclude your testimony. When the light turns red, it 
signals that the witnesses' 5 minutes have expired.
    Before I recognize the witnesses, it is the tradition of 
this Committee that they be sworn. So if you would please 
stand.
    [Witnesses sworn.]
    Mr. Franks. Please be seated. And I will now recognize our 
first witness for 5 minutes, Mr. King. Would you turn that 
microphone on? We are always missing that, sir.

  TESTIMONY OF THE HONORABLE STEVE KING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman. It has been an 
interesting introduction here with the statements of the 
Members. I was going to start out with a Tower of Babel 
discussion, but I think I will pass that. Mr. Conyers perhaps 
has made my point on that for me.
    I would take this back to the narrative from when I got 
interested in official language issues. And that was, as I 
heard the story from my father, who my grandmother, Freda 
Katrina Yohanna Harm King, came over from Germany with her 
family, they were a German-speaking household. And my father 
grew up in a German-speaking household.
    He went to school on his first day of kindergarten speaking 
German, and kindergarten, of course, is a German word, so they 
should not have been very shocked at heading off to 
kindergarten. But it was a whole new experience for him in that 
classroom that was in English. And when he came home, he walked 
into the door of the house, and he said hello to his mother in 
German. She turned to him and said, speaking German in this 
household is for you, from now on, verboten. I came here to 
become an American, and that means learning and speaking 
English. And you will go to school and learn English, and bring 
it home, and teach it to me.
    My father was the last of seven children to actually speak 
any German. The rest of them learned English. And their family 
converted to English because the kids went to school, brought 
it home, and taught it to their mother. The father did speak 
English, but he was working quite a lot.
    So I got interested in it that way. I gave a speech on 
October 10th of 1996 as a candidate for the State Senate, and I 
just happened to mention that I thought English should be the 
official language of the State of Iowa. About 150 people there 
erupted in applause, and it surprised me that it went that deep 
into the nerve center.
    A reporter began to attack me for my position, which I 
began to defend. I ended up in the Iowa Senate as the chief 
sponsor and author of English as the official language of the 
State of Iowa. It took 6 years. We wrote the bill and refined 
it. But it is important to say English is the official 
language.
    If you look around the world and you think how the city-
states merged into nation-states, why did they, especially in 
western Europe and eastern Europe? Primarily around the lines 
of language, because language, a common language, is the most 
powerful unifying force known throughout history, throughout 
all humanity, and all time.
    It is stronger than the forces of tribe, or race, or 
ethnicity, or common experience, or common history. It is 
stronger even than religion. If people can communicate with 
each other, they are bound together. If they cannot 
communicate, they are bound to separate. The lesson of the 
Tower of Babel tells that. How did God scatter the people to 
the four winds? Because He scrambled their language.
    We saw an example of that this morning. As much as we are 
amused, we still stopped listening. We need to bind our country 
together.
    When I sat in testimony before the Small Business Committee 
with George Bush's second-in-command on the Department of 
Labor, and I asked the question, I understand why you cannot 
hire people and train them to run a punch press or a lathe 
because they do not understand English. But are you having a 
second generation problem there? They said, yes. Not only that, 
third generation problem.
    We have language enclaves all over this country, and I know 
that we are going to bring in immigrants. I welcome them. But, 
they expect to arrive in a country that has an official 
language. And if you look around the world at the numbers of 
countries there are conflicting analyses of that.
    I did one where I opened up an almanac, and I took every 
country that had a flag. I looked it up--and at this time the 
World Book Encyclopedia--every other country had an official 
language according to that research. There are a couple, three 
exceptions out there in the world otherwise.
    Some have more than one official language. Singapore has 
English as an official language. It is pretty interesting that 
other countries saw the wisdom in this, and here in the United 
States we have not been able to get there.
    Noah Webster wrote the American English Dictionary for the 
purpose of uniting the American people. He saw that among the 
colonies where he traveled, that there were colloquialisms that 
were arising, and new languages were emerging because people 
did not travel and interact with each other enough. So, he 
wrote the American English Dictionary for the purpose of 
binding the American people together.
    Thank God English is the common language in this country. 
It has bound us together. We need to make it the official 
language because there are efforts in this country to fracture 
this and divide it. Going clear back to 245 B.C., the first 
emperor of China, whom I pronounce Qin Shi Huang, and the 
Chinese always correct me on that pronunciation. He identified 
that the Chinese spoke different languages, at least 300 
different dialects all over the landscape where they are today 
as one China.
    He hired scribes to write the Chinese language for the 
purposes of binding the Chinese people together for, ``the next 
10,000 years.'' Well, it is has worked pretty good for the next 
2,500 years. There is no sign of that fracturing that I can 
see.
    We are a Nation that should be able to look across history, 
humanity, culture, economics, and know that we are blessed to 
have English as our common language. We need to make it our 
official language. It is the official language of the maritime 
industry, the air traffic controllers, and something that I 
have enjoyed sitting at the round table at the EU as the 
official language of the European Union, although sometimes you 
hear it with a French accent.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. King follows:]

            Prepared Statement of the Honorable Steve King, 
          a Representative in Congress from the State of Iowa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Franks. And I thank the gentleman. And I now recognize 
Congressman Gonzalez for 5 minutes. Thanks for being here, sir.

       TESTIMONY OF THE HONORABLE CHARLES A. GONZALEZ, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Gonzalez. Mr. Chairman, Ranking Member Nadler, Hermano 
Conyers, and Members of the Subcommittee. I am grateful for 
this opportunity to testify before you today.
    I have never understood the motivations of those who 
believe either our country or our language needs to be 
``protected'' by a law like H.R. 997.
    Let us leave aside for now the questionable use of the word 
English in the bill's title instead of what H.L. Mencken called 
the ``American language.'' Maybe it is because I had such good 
teachers as a child that I learned the power and majesty of 
English. And so I have no fear that the language of Shakespeare 
and Twain needs a Federal law to protect it.
    Maybe it is because I have known Americans for whom English 
was not their first language, and seen firsthand their burning 
desire to learn to speak the language in which our Constitution 
and our laws are written.
    The French have a government agency to protect their 
language because our language so dominates their world, from 
commerce to culture, that they feel threatened. I have never 
had such worries about our commerce and our culture. This bill 
would certainly change our American culture.
    For most of our history, this country has welcomed 
immigrants. They have made us stronger, economically and 
otherwise, and their very desire to come to this country is a 
recognition of our national strength.
    Now there have been vocal minorities who did not share 
faith in the strength of our American culture. Even Benjamin 
Franklin, as reported in an essay by Dennis Baron, and out of 
the essay I will quote, ``considered the Pennsylvania Germans 
to be a `swarthy' racial group, distinct from the English 
majority in the colony. In 1751 he complained, ``Why should the 
Palatine Boors be suffered to swarm into our settlements, and 
by herding together establish their language and manners to the 
exclusion of ours? Why should Pennsylvania, founded by the 
English, become a colony of aliens who will shortly be so 
numerous as to Germanize us instead of our Anglifying them, and 
will never adopt our Language and Customs any more than they 
can acquire our Complexion.' ''
    In the mid-19th century, they called themselves the 
American Party and bragged that they were defending from the 
imminent destruction that would be wrought by criminal 
immigrants--Catholics from Ireland and Germany. Most Americans 
called them Know-Nothings, and their ignorant bigotry is justly 
condemned.
    In the later 19th century, we heard of our imminent demise 
at the hands of the ``Yellow horde'' of Chinese immigrants. And 
it is not yet 2 months since the House expressed our regret for 
that lengthy fit of unjustifiable bigotry.
    These cries of our imminent demise by assorted alarmists 
were wrong then and they are wrong now. Do we really want to 
return to the mindset of a century ago when a man could testify 
to Congress about immigrant laborers and say, ``These workers 
don't suffer--they don't even speak English.''
    We are a country, and a strong country, when and because we 
act as one, when, ``We the People,'' ``establish Justice, 
insure domestic Tranquility, provide for the common defence, 
[and] promote the general Welfare.'' We the people speak with 
accents from Texas and New York. Anyone who has listened to the 
Chairman and Ranking Member of the Financial Services Committee 
when they converse might wonder if they were indeed speaking 
the same language.
    We speak English and Inuit. We are one because we will it 
so. The United States is about what we do, not how we describe 
it. That is why back in 1787 the Constitution was translated 
and printed in German so that the non-English speaking minority 
in Franklin's Pennsylvania, which would become the second State 
to ratify our Constitution, could fully participate in the 
ratification debate.
    What that means, Mr. Chairman, and Members of the 
Subcommittee, is that our founding document, under and from 
which we derive all our authority as a Congress, is the result 
of the opinions and votes of men who did not even speak the 
language.
    While the tradition of printing some public documents in 
German continued well into the 20th century, it died out 
because, then as now, everyone living here, especially American 
citizens, finds life easier if they speak and learn English. We 
do not need to go out of our way to punish non-English 
speakers. The opportunity to enjoy all of the attributes of 
this great country is more than enough of an incentive. There 
is no need for H.R. 997 as is evidenced by the 97 percent of 
Americans who speak English.
    Again, thank you very much, Mr. Chairman, and Members of 
the Subcommittee.
                               __________

    Mr. Franks. I thank the gentleman. The votes have been 
called, but we are going to go ahead and try to get started, 
and we will be returning right after votes. I thank you both 
for your testimony, and I will begin the questioning by 
recognizing myself for 5 minutes.
    Mr. King, is there anything you heard from the opposing 
witness that you would like the opportunity to respond or to 
clarify?
    Mr. King. I heard some of the language about the Know-
Nothings, and I am thinking about some of the bias and 
prejudice against the Irish. That has all gone on. But, I am 
also thinking about third generation Americans today that do 
not speak English well enough to be trained to work in a 
factory. It is a disadvantage for them. This is an economic 
opportunity to encourage people to learn English.
    And I do not know that there are third generation Germans 
in Pennsylvania that did not get a handle on the English 
language.
    I would also make the point that this bill does not, and no 
one alleged otherwise, but this bill does not go in and amend 
any components of the Voting Rights Act or other provisions 
that are there in statute. But what it does do, and I did not 
put this into my testimony, it does address Bill Clinton's 
Executive Order 13166. Not specifically, but the general 
language I believe does nullify President Clinton's executive 
order which essentially says we are going to promote multiple 
languages and utilize that, and provide interpreters. This goes 
the opposite way.
    The Constitution that Mr. Gonzalez talked about being 
interpreted into German, well, it just would not be official. 
It would be a German version, an unofficial version. The 
official version would be in English. That is common form of 
communications currency, and language is just like the euro.
    Mr. Franks. Well, Mr. King, your English bill became law in 
Iowa. What has been your perspective of the impact?
    Mr. King. Well, at first there was a defiance of it on the 
part of then Secretary of State, as he was campaigning for 
governor, Chet Culver, the most recent Democratic governor that 
we have had. He as Secretary of State printed voter 
registration documents and absentee ballot requests in multiple 
languages. I sent a letter to him and asked him to withdraw 
those because it directly violated. They are official documents 
after all that directly violated Iowa statute.
    He did not. I do not recall if he actually answered. Quite 
often they just do not. And as so, I had to take him to court, 
and the court enjoined that activity that he was carrying on. 
He was subsequently elected governor, but the Secretary of 
State has been bound by the law from this point.
    That is the only thing. Otherwise, there was an intense 
opposition to it from a very small percentage of people that 
mounted a very energized effort. And once we just dealt with 
that argument, it went away. And there has not been an issue in 
Iowa since then other than the case that I mentioned.
    Mr. Franks. Mr. King, why do you think over 90 percent of 
all Nations have designated at least one official language for 
day-to-day government operations and official communications? 
Are they discriminating?
    Mr. King. Well, that was kind of an interesting piece of 
it, too, the allegation of discrimination. And it must be to 
the rest of the world. They understand that you cannot operate 
in multiple languages.
    If you think in terms of, for me I spent in the contracting 
business. If you have a contract, you write that contract, and 
if it is in English, fine, we agree to that definition. But if 
you had a contract that was in, say, Chinese and in French, how 
do we resolve that issue here? That is a private sector issue, 
I understand. But within the government, you need to have a 
common form. You have got to have something you can go back to 
and say this is it. This is the official document, and we argue 
off it. We litigate off it. We debate off it. We provide 
services off of it.
    And so I think it is just the simplest common sense to 
understand that this is unifying. It is not dividing. It is not 
an insult to anyone. In fact, the immigrants that come here 
expect that we have English as the official language because 
they are primarily, almost exclusively coming from a Nation 
that has an official language.
    Mr. Franks. Mr. King, would a Federal official English 
language law affect how State and local governments operate and 
implement their own English official language laws, or affect 
how they administer and offer multilingual services, such as 
translating documents or taxpayer funded interpreters?
    Mr. King. Well, I do not have the number on what it 
actually costs us to print in multiple languages as we do. But 
the interpreters is another cost of this, and I expect we may 
have some witnesses that will address that as a specific dollar 
value is concerned.
    But the responsibility shifts over from what has been given 
to the government by Bill Clinton's 13166 Executive Order to 
the people. And, you know, up until that time, we had always 
managed, no matter what we had for different languages, people 
found a way to do business with the government in English up 
until such time as Bill Clinton introduced that executive 
order. So, I think that is one of the driving forces on why we 
need to do this.
    The effort on the part of the Federal Government is to, 
with that directive of Clinton's executive order, promote 
multilingualism within government. That does not bind us 
together. You know, I have traveled in foreign countries, and 
in this country, too. When you see a foreign language on a sign 
or multiple languages on a sign, like in an airport, I have 
tried to train myself to be able to read the foreign language, 
and you just cannot. You do not do that. You revert to the 
language you are familiar with, and you move on.
    So, the more multiple languages we offer as a government, 
the less likely people are to learn English because they will 
use the language they are comfortable with.
    Mr. Franks. Well, thank you, Mr. King. And I would yield to 
Mr. Nadler for questions. We have 6 minutes, 33 seconds on the 
clock. Do you want to--I think perhaps he is right. We are 
going to go ahead and recess the Committee, and we will come 
back right after votes.
    And I apologize. You know how leadership forgot to check 
with me this morning. [Laughter.]
    And so we will return. We are recessed.
    [Recess.]
    Mr. Franks. This hearing will come to order, and we will 
now resume with questioning. And I will yield to Mr. Conyers 
for questions for 5 minutes. I am sorry, I am skipping right 
over the gentleman. I will yield to Mr. Nadler for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman. Congressman King, you 
stated in answer to one of Chairman Franks' questions that your 
bill would not impact the Voting Rights Act. Yet Section 203 of 
that law specifically requires certain jurisdictions to provide 
all voting materials that they provide in English also in the 
language of a language of a minority, be that Spanish, or 
German, or Yiddish. This includes voter registration forms.
    You sued the Iowa Secretary of State with respect to a 
nearly identical law. So how can you say that this would not 
impact the Voting Rights Act, that this would not impact 
Section 203?
    Mr. King. Well, first I can see that the gentleman has made 
a point that is worthy of discussion here. And when I brought 
the suit against the Secretary of State in the State of Iowa, 
it was on State law as opposed to Federal law.
    The Voting Rights Act contains with it covered districts. 
Those covered districts, I believe, are a different legal 
question than they are in the broader component of this. Like a 
lot of legislation, there may be differing opinions on how this 
would be resolved if it needed. It is hopeful that we come 
together on a common language and do not have that problem.
    Mr. Nadler. Hold on. The covered jurisdictions of Section 5 
has nothing to do with this. Section 203 covers the entire 
country and says that where you have a sufficient foreign 
language population as a percentage of the voters, you have to 
issue all voting materials in English and in some foreign 
languages. Would your bill change that?
    Mr. King. Well, the Voting Rights Act puts the obligations 
on the States, and this bill applies to and binds the Federal 
Government. That is a distinction that is part of this with 
regard to the Iowa piece. As I interpret----
    Mr. Nadler. Are you saying it would not impact that?
    Mr. King. I want to go back and read that section in light 
of the point that you have raised. And this is Congress----
    Mr. Nadler. Is your intent not to affect that?
    Mr. King. It is my wish one day to affect that. I have done 
so by bringing an amendment to the Voting Rights Act when it 
was reauthorized on the floor----
    Mr. Nadler. Is your intent in this bill to affect that?
    Mr. King. It is not my specific intent to target that 
particular component. I think that is an unresolved 
disagreement that we may have.
    Mr. Nadler. Well, would you put a provision in the bill to 
make it clear that that does not affect that?
    Mr. King. I will take a look at the proposal and work with 
the gentleman from New York if we can come to an agreement.
    Mr. Nadler. Okay. Now your Iowa bill has an exception, Iowa 
Code Section 1.184(h) for ``any language usage required by or 
necessary to secure the rights guaranteed by the Constitution 
and the laws of the United States or the Constitution of the 
State of Iowa.'' You did not include similar language to 
provide that exemption in H.R. 997. Was there a specific reason 
why that language is not included?
    Mr. King. In response, I would look at Section 165 and sub 
(4). It says in the bill, ``Nothing in this chapter shall be 
construed to be inconsistent with the Constitution of the 
United States.'' I believe we do not need to address the 
Constitution of the State of Iowa in this bill.
    Mr. Nadler. So in your interpretation, it would have the 
same effect as that language, that it would not affect any 
language usage required by or necessary to secure the rights 
guaranteed by the Constitution of the United States? Would that 
be the same effect?
    Mr. King. Yes. And that is the intent.
    Mr. Nadler. Okay.
    Mr. King. And really, I think we would agree in this 
Constitution Subcommittee that it is a bit redundant to even 
have this language in here that I have addressed that could be 
inconsistent with the Constitution of the United States, 
because we are the Constitution Subcommittee and it ought to be 
constitutional when it comes out of here.
    Mr. Nadler. Thank you. Chairman Franks asked what impact 
H.R. 997 would have on State laws. Specifically, would this 
override States laws, particularly those State laws that might 
allow or require the use of languages other than English? Would 
it restrict States government officials or employees, or is 
this only for Federal laws and Federal Government employees?
    Mr. King. It addresses Federal functions and activities, 
not State functions and activities.
    Mr. Nadler. So if the State law requires usage of foreign 
languages in certain situations, it would not affect that.
    Mr. King. Provided that it is not a Federal function, yes, 
an official Federal function.
    Mr. Nadler. And what about State--well, given the fact that 
the bill defines the Federal Government as including State and 
local governments, I do not know that a court would interpret 
the law that way.
    Mr. King. We address the official functions of government, 
the official business of the Federal Government. If it is the 
official business of a State government, we are not addressing 
that. But it says any function that binds the government is 
required by law----
    Mr. Nadler. But not to question----
    Mr. King [continuing]. To scrutiny.
    Mr. Nadler. Not the question of the official function. I 
asked about would it affect State laws. And the bill says, 
``For the purposes of this section, the term 'United States' 
means the several States and the District of Columbia.'' So in 
other words, as I read the bill, whenever it refers to the 
United States, you are also referring to the States, so it 
would bind the States and would--and not only for Federal 
functions. In other words, it would, as I read it, say that the 
States could not use foreign language materials period. Now if 
that is not your intent, which you stated it is not, you might 
want to clarify that.
    Mr. Franks. The gentleman's time has expired, but the 
witness can go ahead and answer the question.
    Mr. King. I thank the Chairman. We have language in the 
bill that reserves the rights back to the States for the 9th 
and 10th Amendment that addresses that, I believe, Mr. Nadler. 
So I think we are comfortable this addresses only the Federal 
Government and does not direct the States in their functions.
    Mr. Franks. Thank you. I would now recognize the gentleman 
from Virginia, Mr. Forbes, for 5 minutes.
    Mr. Forbes. Mr. Chairman, I want to thank you, and I want 
to thank you for holding this hearing. I want to particularly 
thank Mr. King and Mr. Gonzalez for their willingness to come 
here and talk about this issue.
    I think if we step back a moment, one of the things we 
realize is overwhelmingly a majority of American people want 
the concept that is embraced in this bill. And I appreciate us 
having a dialogue. I appreciate Mr. Gonazalez's thoughts and 
Mr. King's thoughts because all too often when someone brings a 
concept like this, we are so quick instead of talking about the 
issues, to try to vilify one another, or to try to mock one 
another.
    And as I was listening to the Ranking Member as he gave his 
speech, I looked through the audience, and I saw a lot of 
smiles and even thumbs up in doing that. And I understood that. 
And the reason I understand it is because when I go to Europe 
and to have NATO meetings, and someone comes in and they sing a 
song in English, or they try to speak in English, I want to 
give them a thumbs up. And I want to smile because I embrace 
that.
    But then what happens is we go in to try to meet, and we 
have to put on earphones, and we have to have interpreters 
because some of them are speaking German, and some of them are 
speaking French, and some of them are speaking Chinese, and 
some of them are speaking other languages, just like the 
Chairman said. And when you step back and look at that, it is 
so difficult to get any kind commonality of understanding to 
move forward.
    And, Mr. Gonzalez, when you mentioned that Mr. King was 
doing this to protect the English language, I hope you 
understand, he is not doing this to protect the English 
language. He does not think the English language is in threat 
of being abolished.
    What it is when sit down as a country, there are folks on 
this Committee who do not believe we should have any 
commonality of values. They fight to make sure we do not have 
those commonality of values. They fight on any kind of 
commonality of faith. Some of them do not even support the 
Pledge of Allegiance to the Flag. When we tried to put it in 
the visitor's center, 6 Members, many of them from this 
Committee, voted no. Do not even put the Pledge of Allegiance 
in there because that is too disruptive. It brings us together 
in a way that we should not.
    And what Mr. King's bill tries to do is not protect the 
English language, but to encourage us to have some basic 
commonality of communication so that we can find common ground 
to build a Nation upon and to move forward with solutions that 
help this Nation. And language is the fundamental aspect of 
that.
    And we would all sit back and we would think how absurd it 
was if we said we were going to go on the floor in just a few 
moments for the next bill and debate it and have to put those 
earphones on, and have all those interpreters. But then when we 
look at doing the same thing in our warehouses or our 
manufacturing plants, somehow we think the absurdity of that. 
And it is not absurd at all.
    I think it is a principle that Mr. King has grasped that is 
something we need to encourage and we need to push forward. And 
whether it is this bill or whether it is something else, it is 
not a matter of saying we are going to take language away from 
folks who speak German, or folks who speak Spanish, or French, 
or Chinese, or Vietnamese. It is a matter of saying in this 
country there need to be some things that are common among all 
of us that we aspire to, and we push them, whether that is 
through incentives, or whether that is through a piece of 
legislation, I think it is vitally important to our success as 
a Nation.
    So I commend both of you for coming in here and having this 
dialogue, and, Mr. King, for bringing forth this particularly 
piece of legislation. And I hope that we will continue to have 
this discussion to see how we can move forward on this concept 
that I think is embraced by a vast majority of people in this 
country.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Franks. And I thank the gentleman and associate myself 
with his comments.
    I would now recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. King, I was not sure of your answer on the Voting 
Rights Act. Is this intended to override Section 203 of the 
Voting Rights Act?
    Mr. King. I am sorry, Mr. Scott, I could not hear your 
question.
    Mr. Scott. Is this legislation designed to override the 
language provisions of the Voting Rights Act?
    Mr. King. As I responded to Mr. Nadler, I want to go back 
and read that section in light of this. I cannot tell you today 
that it is designed to override it, but I can tell you that it 
is----
    Mr. Scott. Is it intended to override?
    Mr. King. I cannot tell you today that it is intended to 
override it.
    Mr. Scott. I am sorry, it is?
    Mr. King. I said I would like to go back and read that 
section.
    Mr. Scott. Okay, it is?
    Mr. King. That analysis was done several years ago, and I 
need to go back and revisit that.
    Mr. Scott. I am sorry, I did not hear you. Did you say it 
is or is not intended?
    Mr. King. I said I cannot tell you today that it is 
designed to override it.
    Mr. Scott. Okay.
    Mr. King. That analysis was done several years ago, and I 
would like to go back and reread Section 203.
    Mr. Scott. Is Medicaid an official function of the United 
States government?
    Mr. King. It is federally funded, and when it happens 
within a Federal office, then it is an official function.
    Mr. Scott. Okay. Now if people want to learn English, they 
have to take English language classes. Mr. Gonzalez, is it not 
a fact that most English language courses have waiting lists?
    Mr. Gonzalez. Absolutely, that is one thing that we have 
encountered. In my district, it is about 62 percent Latino, and 
depending on the generation, obviously we do attempt to locate 
the services, and--definitely underserved.
    Mr. Scott. Is there anything in this legislation that would 
increase funding so that those who already want to learn how to 
speak English or learn how to speak English better, is there 
anything in this legislation that will help them?
    Mr. Gonzalez. I do not see anything. I actually think that 
this actually will mitigate against those that will assimilate 
more quickly, learn the English language. I think this sets up 
a situation for discriminatory practices. I do not believe that 
if you have someone--and, Mr. Scott, you know, I am not sure if 
the author and supporters of this bill understand the impact on 
certain communities that this would have. You know, you have 
somebody that is an American citizen, has worked, paid their 
taxes, made their contribution, and have a problem with Social 
Security or Medicare, or maybe even a widow of an American 
veteran that may not be English proficient. My understanding is 
that a government official would not be allowed to conduct 
business in any other language.
    So, I mean, those are just the practical problems that come 
up, but there is no need for the legislation.21Mr. Scott. Well, 
we have had comments that people should learn English through--
you say you have a significant portion of your district that is 
Latino. Do you find people are unaware that learning English 
will help them advance in society?
    Mr. Gonzalez. It is the aim of every Latino family in my 
district to become English proficient. It is something that we 
always tout and encourage. Mr. Scott----
    Mr. Scott. Well, will this legislation not alert them to 
what they do not know?
    Mr. Gonzalez. I think it really is something that is not a 
positive development in the lives of those that are here 
learning English. I will speak to a Latino population, and the 
immigrant. They are no different than any other preceding 
immigration group that came to the United States. It is 
generational in nature. That first generation will have a 
difficult time with English proficiency. By the second, you 
have made tremendous inroads. By the third, you do not even 
have a bilingual offspring at that point. You have someone that 
speaks primarily English.
    Mr. Scott. And are you suggesting that they do not need 
this legislation to alert them to the fact that English is a 
good thing to learn?
    Mr. Gonzalez. And to your point, you are exactly right. 
This does nothing. And as far as Mr. Forbes about this communal 
concept, it already exists in this country. This is totally 
unnecessary. It is the mischief in the unintended or intended 
consequences of the law that concern me.
    Mr. Scott. You have language in here that says that all 
citizens should be able to read and understand generally the 
English language text of the Declaration of Independence, 
Constitution, laws of the United States, made pursuant to the 
Constitution. Last time I saw language like that was where the 
intent was to deny African-Americans the right to vote under 
literacy provisions. Where else can you find that kind of 
language?
    Mr. Franks. The gentleman's time has expired, but please 
feel free to answer the question.
    Mr. King. And if it was directed toward me, which I presume 
it was.
    Mr. Scott. Yeah.
    Mr. King. I do not know where that language might exist 
otherwise. And I would be interested in the narrative from the 
gentleman from Virginia, if he has seen that language as part 
of their life's experience.
    But as a standard here that we wrote into the bill for the 
purposes of encouraging the learning and understanding of the 
Declaration and the Constitution and the laws written from it, 
for the very purpose of encouraging newly-naturalized citizens 
to learn and understand deeply the history of this country and 
the founding documents of this country.
    And if you have done naturalization services as I have, and 
I appreciate the chance to do so, they take it very seriously. 
And when they have a responsibility to learn our historical 
documents as part of the naturalization process, this 
Constitution and Declaration, I think, will be written on their 
hearts. And that is the reason to have it there.
    Mr. Franks. And I thank the gentleman. And I now recognize 
the gentleman from Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you very much, Mr. Chairman. I would like 
to start off by perhaps asking each of the two witnesses here 
to comment on a particular statement. And the statement would 
be that the surest path to economic, social, and educational 
prosperity in this country is to learn English.
    In either order that the two gentleman would like to 
respond, I would just be interested to hear what they might 
like to say.
    Mr. Gonzalez. I do not think you are going to have a debate 
that English proficiency is something that I think enables and 
empowers individuals. This is not the way to do it. What do you 
do with the people that are on the pathway to English 
proficiency? Do you just forget about them? Do you not inform 
them, educate them to be more productive citizens simply 
because they are not English proficient at that point in their 
lives in this country? That is the problem with this.
    Now I see much more behind this but, you know, I am a 
Congressman; I see all sorts of motive. But the thing is, you 
are not contemplating real life experiences whether in the past 
with other immigration groups or what we have at present in the 
United States today.
    Mr. Chabot. Thank you. And I would just like to comment 
that you are going to be greatly missed around this place, 
Charlie.
    Mr. Gonzalez. I am going to miss you, too, Steve.
    Mr. Chabot. Yeah, because he is a fine gentleman, 
tremendous Member of Congress. And whereas we may differ on 
issues here and there, including probably this one, you know, 
he has done a great job for his constituents and the people of 
this country. So thank you, Congressman Gonzalez.
    Mr. Gonzalez. I really appreciate that.
    Mr. Chabot. Absolutely. And, Congressman King?
    Mr. King. I might say to my friend Mr. Gonzalez, I did not 
quite recognize his Texas accent today either. But I appreciate 
the comments around that. And really this is about unity. There 
are a couple of different ways to look at society, and one of 
them is that to accommodate people, and eventually their good 
intentions will overcome the accommodation, and they will adopt 
English as the official language.
    The other side of that is is that for me, I believe in 
immersion. If I got to a foreign country, as Mr. Forbes said, 
and if I were going to live there, I do not really want help in 
the English language because it does not encourage me to adopt 
the language that I might be operating within.
    So many of us have traveled in that way and learned some 
words of that language because it is necessary to operate in 
their society. If you have a sign here that says stay off the 
grass, let us say, in German and another one that says stay off 
the grass in English, if your natural ability is to read in 
German, you are not going to read that other sign. You are not 
going to learn it. I have tried it with stop signs in foreign 
countries, and it is an accommodation that is unnecessary. It 
is better for people to be functioning in a common language.
    I think we agree with that. We have moved in that direction 
at least with this dialogue here. How do we go about doing 
that? There is also language in the bill that I wanted to point 
out that says such obligation of the Federal Government to 
function in English, but the obligation also shall include 
encouraging greater opportunities for individuals to learn the 
English language. So part of the intent here, too, is to 
encourage the learning of the English language, not to shut 
people out, to be inclusive and empower people by having a 
common language that ties us together.
    Mr. Chabot. Okay, thank you. Before coming to Congress, I 
was a schoolteacher. And I would be interested to hear, Steve, 
your take on how your legislation, or at least what the goal 
would be as far as children who perhaps do not have English 
skills, and how they would have a better outcome ultimately in 
education if they got it quicker and had to learn English more 
quickly than perhaps some school systems do nowadays. What 
would your legislation do relative to that, and what is your 
intention with respect to that?
    Mr. King. Well, if it is an official function of the 
Federal Government, then it directs those functions to be in 
English. But it also has exemptions, exceptions, for the 
teaching of languages and the requirements under the 
Disabilities Education Act. Those two things are exceptions.
    So I do not know that it changes education much within our 
educational system, except our young people would be educated 
that English is the official language, if this bill passes, of 
the United States of America. And it raises the expectation 
that as an American and American citizen, you have a stronger 
and broader obligation to learn English that binds us together.
    You did not likely hear my opening statement where I told 
the narrative of my father coming home from his first day in 
kindergarten speaking only German. As he said hello to his 
mother in German, she pointed to him and said, speaking German 
in this household is for you from now verboten. I came here to 
become an American. That means I have to learn English, and you 
are going to learn it in school and bring it home and teach it 
to me.
    These things penetrate through the culture, and they are 
very positive things. There is nothing that discourages the 
learning of other languages, and, in fact, that is something 
that we want this country to do. But we want to bind ourselves 
all together with the common language. It is the most powerful 
unifying force known throughout all time and humanity.
    Mr. Chabot. Thank you very much.
    Mr. Franks. I want to thank both of you for coming. And I 
appreciate the sponsor. Also, Mr. Gonzalez, I express my own 
very best wishes to you, sir. And we will look to see what is 
wonderful and great that comes next in your life. Thank you 
both very much.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    Mr. King. Thank you, Chairman.
    Mr. Franks. And if the second panel then would be seated.
    Well, I want to thank you all for being here. And I would 
like to introduce the witnesses on our second and final panel.
    Our first witness on the second panel is Dr. Rosalie 
Porter. Dr. Porter is an accomplished author and scholar and 
current chairwoman of the Board for ProEnglish. She is a 
consultant for school districts across the country and the 
executive director of the Institute for Research in English 
Acquisition and Development.
    Dr. Porter arrived in the U.S. at age 6 not knowing a word 
of English. My wife came at 11 knowing yes, no, and what is 
your name.
    Our second witness is Rene Garcia. Mr. Garcia served in 
the--am I pronouncing that properly, sir?
    Mr. Garcia. Rene.
    Mr. Franks. Rene, okay. Mr. Garcia served in the Florida 
House for 8 years before being elected to the Florida State 
Senate where he currently serves. He serves as the chair of the 
Florida Senate Health Regulation Committee and holds several 
other committee positions.
    Our third and final witness is Mauro E. Mujica. Mr. Mujica 
has been chairman of the board and CEO of U.S. English, Inc., 
since 1993. Mr. Mujica immigrated to the United States from his 
native Chile and has firsthand understanding of the obstacles 
facing non-English speakers upon their arrival in this country. 
He succeeded the late Senator Hayakawa, who founded the 
organization in 1983.
    Welcome to all of you. And each of the witnesses' written 
statements are going to be written in their entirety. But for 
now I will now recognize Dr. Porter for 5 minutes.

TESTIMONY OF ROSALIE PEDALINO PORTER, Ed.D., CHAIRWOMAN OF THE 
                 BOARD OF DIRECTORS, PROENGLISH

    Ms. Porter. Thank you for the opportunity to testify today 
in favor of H.R. 997, legislation that will make English the 
official language of the United States.
    My name is Rosalie Pedalino Porter, and I am chairman of 
the board of ProEnglish, a national advocacy organization.
    When I immigrated to the United States from Italy as a 6-
year-old child, no one in my family spoke a word of English. I 
was fortunate to grow up at a time when Americans felt 
confident about their national culture. And immigrants were 
encouraged to learn the English language and assimilate. The 
public schools taught me English, opening the door for me to a 
wonderful education up to the graduate level at the University 
of Massachusetts.
    I am committed to protecting English as our common language 
because it is so essential to immigrant success.
    My professional career of 4 decades has been dedicated to 
improving the education of non-English speaking children in our 
schools. I have advised school districts and testified in court 
cases in Arizona, California, Florida, Massachusetts, Texas, 
and Washington. From 1985 to 1988, I served on the National 
Advisory Council on Bilingual Education that advised the U.S. 
Congress on education policy.
    The organization that I chair, ProEnglish was founded in 
1993 to preserve English as the common unifying language of our 
Nation by making it the official language at all levels of 
government--local, State, and Federal. As you have heard 
everyone say this morning, the English language is one of the 
strongest and most durable ties that unite us as Americans. The 
founders of our Nation recognized this, and this is why 
President George Washington signed a law passed by Congress in 
1795 requiring all existing and future Federal statutes of the 
United States to be published exclusively in English.
    Having one official language of record for government 
operations and communications makes government more efficient 
and less costly. It eliminates the demands for taxpayer funded 
services or documents in any other language, with exceptions 
under H.R. 997 for instances that service the public interest, 
as in protecting public health and safety. It does not mean 
English only. Nor does it force anyone to speak English in 
their personal daily lives or limit the study of foreign 
languages. Official English means that for the government to 
act officially and with legal authority, it must communicate in 
the English language.
    Ninety percent of the world's Nations have at least one 
official language, including 47 countries that have English. 
Thirty-one of our 50 States have already adopted English as 
their official language in statewide elections, with voter 
approval margins as high as 9 to 1. No harmful effect has yet 
been reported from these laws.
    Here are three urgent reasons why Congress should act now. 
First, it is time to end the Federal Government's policy of 
trying to force all government agencies and Federal fund 
recipients to provide multilingual services. This policy relies 
on an incorrect interpretation of civil rights law.
    Second, we need to avoid the kind of divisiveness, 
inefficiency, and waste that we see today in places like the 
European Union that is struggling to cope with 23 official 
languages.
    Third, as our country grows more diverse, thanks to our 
immigration, with 303 languages now present in our population, 
it is even more important to stress what unites us as Americans 
a common language.
    Mr. Chairman, I respectfully urge the passage of H.R. 997. 
It is essential to the unity and wellbeing of our country. It 
will promote the successful integration of immigrants and their 
children into American life and will save millions of taxpayer 
dollars. Perhaps those dollars could be used for English 
teaching classes.
    It will reinforce a melting pot ideal that has helped to 
make our country the most successful country in the world.
    Thank you. I will be happy to answer any questions, Mr. 
Chairman, from you or your colleagues.
    [The prepared statement of Ms. Porter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. And thank you, Dr. Porter.
    Senator Garcia, I will now recognize you, sir, for 5 
minutes.

            TESTIMONY OF THE HONORABLE RENE GARCIA, 
               FLORIDA STATE SENATOR, DISTRICT 40

    Mr. Garcia. Thank you, Mr. Chairman, and Ranking Member, 
and Committee Members. It truly is an honor and a pleasure to 
be here. It is really different to be on the other side of the 
Panel.
    But really, I am here pretty much to give you my 
experiences in Miami-Dade County and how it relates to this 
bill and English as the official language. And may I start off 
by saying that Florida does have an official language, which is 
English, and it is really a statement of principle and still 
allows us to conduct business in different languages. But that 
is because Florida chooses to do it that way.
    Now the reason that I have some concerns with this 
language, and especially Section 163 of the bill, which 
addresses the different jurisdiction as the States and its 
territories and so forth that English will be the official 
language, is that how then am I going to be able to communicate 
with my constituency?
    You see, in South Florida, and Miami-Dade County, and our 
public school system, on a daily basis, almost 150 languages 
are spoken in our school system. Ten of those languages are as 
bilingual education. Federal funds are received for that 
bilingual education in our school system. Why do we teach our 
children in multiple languages? Why? To prepare them for the 
global marketplace, to make sure that they have an advantage 
when they go and compete in this global economy that we all 
hear so much that we belong to.
    By restricting that ability, I think we are doing a 
disservice to our children and to our country. You see, when 
you travel to most European countries, and I remember when I 
was in elementary school, a friend came from, I think it was 
Israel. He came from Israel. When he came over to the United 
States, he spoke English, Spanish, French, and Arabic. And that 
was impressive, and this was in sixth grade. Later on this 
gentleman, he is now a principal of one our local schools, and 
he has been successful, and he is one that really pushes for 
this type of education forward.
    Now when we address the issue of communicating with our 
constituency, in Miami-Dade County, our ballots are translated 
from English to Spanish to Creole. Why? Because we want more 
inclusion. We want more people to participate in a democratic 
process ensuring that they have a voice.
    We have seen that numbers have increased in the 
participation of Hispanics and Haitian-Americans because of the 
translation of these ballots. If we are not going to allow 
these ballots to be translated, then we are excluding them from 
the process.
    I understand the intent of the bill. We want people to 
speak English. When people come over from foreign countries, we 
want to make sure whether they are immigrants or exiles, we 
want to make sure that the first thing they do is learn 
English. And why do we not put the resources behind that and 
educate people?
    When people come to my office, the first thing I tell them 
is you need to learn English. That is the first thing you need 
to do. We all understand that English is the common language of 
this Nation. Yes, it is binding. Yes, it does bring us 
together. I am not saying that it does not. It does. But when 
you tell me that I cannot communicate or conduct official 
business with my constituency and allow them to know what is 
going on at our State level, then I do have some concerns.
    This country is about inclusion, not exclusion. That is why 
I am here to assure you that in Miami-Dade County, it is 
working. In Miami-Dade County, we have a lot more participation 
because of the ability to translate our official documents.
    So I encourage you all, if we can address the issues of 
Section 163 and not make it binding where it will be illegal 
for me to communicate in an official capacity with my 
constituency, I would encourage you to fix that or vote this 
bill down.
    And it works. Let us not throw the American Dream out the 
door telling folks that they cannot be part of the process just 
because they do not speak the language. You know, we should 
encourage them to learn and get educated.
    I think that is the intent of the bill, but the 
practicality of the bill is that it will exclude a lot of my 
constituency.
    [The prepared statement of Mr. Garcia follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Thank you, Senator Garcia.
    And I now recognize Mr. Mujica for 5 minutes for his 
opening statement.

        TESTIMONY OF MAURO E. MUJICA, CHAIRMAN AND CEO, 
                       U.S. ENGLISH, INC.

    Mr. Mujica. Good afternoon, and thank you, Mr. Chairman, 
Ranking Member Nadler, and Members of the Subcommittee for 
giving me the opportunity to testify in favor of H.R. 997, 
legislation that would make English the official language of 
the United States.
    My name is Mauro Mujica. I am the chairman of the board and 
CEO of U.S. English, Inc., the Nation's oldest and largest 
organization promoting English as the official language of the 
country.
    I was going to give my testimony in Spanish so Mr. Conyers 
could understand me. But I will continue in English. 
[Laughter.]
    As an immigrant from Chile and a naturalized U.S. citizen, 
the issues that we are discussing here today are of great 
personal importance. Before I came to the United States in 1965 
to study architecture at Columbia University, I knew very well 
that I was going to live in an English-speaking country, and I 
had no doubt in my mind that I had the civic duty to learn the 
common language of the country. I know firsthand how important 
it is to know English to succeed in the United States. I have 
lived this issue, and it is incomprehensible to me that anyone 
would oppose legislation which codifies the language policy for 
this country.
    Mr. Chairman, language is a powerful factor in human 
society. Just as it has the power to unite, it also has the 
power to divide. The job of government is to foster and advance 
the common good. A country that has an official language policy 
is certainly preferable to a country divided by linguistic 
factions. Just look at Belgium. Look at Canada.
    H.R. 997 in no way prohibits citizens from speaking or 
using other languages. The bill establishes an official 
language policy, and that policy applies only to the 
government. In effect, this legislation will encourage 
immigrants to this country to learn the common language and 
enjoy the benefits that that will provide.
    I personally think that it is a great asset for someone to 
know other languages. I am fluent in 4, and I am learning 
Russian right now.
    This issue must be addressed in a forthright and 
expeditious manner. This legislation does not threaten the 
great American tradition of diversity. Ironically, only a 
common language can preserve that tradition. Only a common 
tongue can bind together a Nation formed by people from other 
countries, other races, other languages, and other religions. 
It allows cross-cultural understanding where there is otherwise 
all too often misunderstandings, suspicion, and distrust.
    As usual, there will be people against this legislation, 
people that would see all sorts of problems and people that 
will not even read the text of H.R. 997, and will invent all 
sorts of things that are not even in the bill. I urge those 
people to read carefully all the exceptions in it, which make 
sure that nobody will be punished because they do not speak 
English well.
    According to a Harris Interactive poll that U.S. English 
commissioned this past June, 88 percent of Americans favor a 
law to make English our Nation's official language. A large 
majority of immigrants also support this law. Eighty-three 
percent of Hispanics support it. Incidentally, English has 
already become the global language, and people all over the 
world are learning it.
    I have a slight comment on the side regarding global 
market. I am an international architect. I have worked in about 
40 countries. English is the language of commerce when you are 
outside of this country. An international conference in Brazil 
will be in English. It will not be in Portuguese. An 
international conference in Russia will be in English, not in 
Russian.
    Mr. Chairman and Members of the Subcommittee, I thank you 
again for the opportunity to appear before you on behalf of the 
over 1.8 million members of U.S. English who urge you to pass 
this essential and beneficial legislation. I also thank 
Congressman Steve King for introducing H.R. 997, and for his 
continued efforts in promoting our Nation's common language, 
English.
    [The prepared statement of Mr. Mujica follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Thank you, Mr. Mujica. And thank all of you for 
your testimony. And I will be now asking questions for 5 
minutes.
    Let me begin with you, Dr. Porter. One of the things that I 
hear, a consistent commonality here is that everyone, including 
my own personal experience, is that when someone comes to this 
country as an immigrant, that it is clearly to their great 
benefit to be able to learn English for their upward mobility, 
for their ability to socialize, and for their ability to gain 
economically. This was certainly a very common theme in my 
wife's family, and this is something I have heard all three of 
you testify unequivocally to.
    So I guess the question occurs, Dr. Porter, do you believe 
or do you think there is any evidence to the notion that having 
a bill like this pass would encourage, or incentivize, or 
increase the number of immigrants who learn English when they 
come to this country?
    Ms. Porter. I do believe passing a bill like this will 
encourage, incentivize, motivate more people to concentrate. As 
long as we and government provides services, documents, 
translations in many languages. I will compare it to my 
experience as a bilingual teacher. As long as we have provided 
instruction in the child's native language and English, the 
child tended to listen to the native language and ignore the 
English. It took much longer to teach children a second 
language when they were being educated in 2 languages. 
Fortunately, those programs have been overturned in many 
States, and we are now seeing much greater success for 
immigrant children in learning English rapidly and in 
succeeding in school, in achievement, graduating from high 
school.
    So I would say having the impetus of an official language 
will be a motivator. Most immigrants do want to learn English. 
They need the opportunity. But, you know, it is easy to fall 
back on being comfortable in your home language.
    Mr. Franks. Thank you, Dr. Porter. That certainly seems 
compelling to me. Mr. Mujica, could I put the same question to 
you? Do you believe that from your own perspective or 
experience, is there any evidence to indicate that if we have 
an official language, whether a State does it or the country 
does it, that it is an inducement or a motivation, or that it 
by other means increases the number of the percentage of 
immigrants that come to this country that do, in fact, learn 
English?
    Mr. Mujica. Yes, absolutely. I have seen it in other 
countries. I have worked, as I said, in many, many countries as 
an architect. I have seen the problems in Belgium, the fights 
in Belgium. I have seen the almost secession of Quebec in 
Canada because of language problems. I have seen it in other 
countries. And it is obvious.
    The message that you have to send to the new immigrants 
like myself. And incidentally, you know, we immigrants do not 
come to this country because of the weather or the quality of 
the drinking water. We come here to make money. You can only 
make more money if you know English.
    And knowing English is essential. We cannot send the 
message to the new immigrants that English is optional. They 
can come here, live in Miami all their lives, speak Spanish and 
not bother to learn English. I have seen it firsthand with 
members of my family that live in Miami. They just do not 
bother to learn English. They think English is optional.
    Mr. Franks. Well, thank you, sir. Everything that a person 
does, you know, there are usually some positives and some 
negatives. So, the reason I asked that question is because that 
seems to be a very profound positive on the upside of this 
legislation. The one thing that we all seem to agree on is that 
when immigrants do learn English, that it is better for them 
and better for the country. So, that seems like a worthwhile 
pursuit.
    And there seems to be some clear consensus here that when 
we have laws like this, that occurs. I suppose then the only 
thing we can do is to try to, if we oppose that, find some 
offset to that overwhelming positive.
    Dr. Porter, does an official English law mean that the 
Federal Government itself is prohibited from using other 
languages?
    Ms. Porter. I am sorry, Mr. Chairman, I could not hear.
    Mr. Franks. No, I did not ask the question well. Does a 
Federal official English law mean that the Federal Government 
is prohibited from using other languages?
    Ms. Porter. Of course not. The Federal Government in its 
many operations, for instance, the State Department, the 
Defense Department, the Naturalization and Immigration Service. 
There are specific reasons why other languages must be used, 
and they will be used, and there is no forbidding such 
activities in this law.
    Mr. Franks. Mr. Mujica, do you have anything you would add 
to that?
    Mr. Mujica. No, I think they are all exceptions to learning 
the foreign languages, things like our dollar bills that say e 
pluribus unum. That would not have to be changed.
    I think certain things are clear. I mean, they are so clear 
at least to me that it is difficult to figure out what would be 
wrong with this bill.
    Mr. Franks. Well, thank you, and I now recognize the 
Ranking Member, Mr. Nadler, for 5 minutes for questioning.
    Mr. Nadler. Thank you very much. Senator Garcia, do you 
agree that provision of some bilingual education impedes 
learning of English?
    Mr. Garcia. Of course not. I think bilingual education, and 
this is where I may have to disagree with Dr. Porter. In Miami-
Dade County, we have seen that because of bilingual education, 
we have seen children assimilate much quicker and learn the 
English language a lot easier because of that ability.
    Mr. Nadler. Not to mention math and other things.
    Mr. Garcia. I am sorry?
    Mr. Nadler. Not to mention math and other things.
    Mr. Garcia. Absolutely. Yeah, so that is the key. The 
problem that I see with this legislation currently is that 
because there are Federal dollars attached to it, I think that 
we will have--there will be a problem with us continuing to do 
those programs that we have in Miami-Dade County.
    Mr. Nadler. But that is one of the purposes of the bill.
    Mr. Garcia. Exactly.
    Mr. Nadler. Now, Dr. Porter, you testified in your written 
submission that, ``The U.S. Supreme Court upheld the right of 
States to have official English laws'' in Arizonians for 
Official English v. Arizona, 1997.
    Ms. Porter. Yes.
    Mr. Nadler. In that case, in fact, the Court actually 
dismissed the case because the employee challenging the law had 
voluntarily left her job and made the case moot. Far from 
ruling that the Arizona law was valid, as you claim, the Court 
said, ``We express no view on the correct interpretation of 
Arizona's English only law or on the measure's 
constitutionality.'' The Arizona Court subsequently ruled in 
Ruiz v. Hull that the law was unconstitutional.
    I am submitting the U.S. Supreme Court decision and the 
Arizona Supreme Court decision for the record as it is 
important to reflect the fact that the U.S. Supreme Court has 
not approved English only laws, and that Arizona's highest 
court struck down the law that you mistakenly claimed the U.S. 
Supreme Court upheld.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               __________
    Mr. Nadler. Would you like to correct the record at this 
time?
    Ms. Porter. I would like to comment on the Flores v. 
Arizona case or Arizona----
    Mr. Nadler. No, no, no. You said in your testimony that the 
U.S. Supreme Court upheld the right of States to have official 
English laws in the case of Arizonians for Official English v. 
Arizona. In fact, the Court ruled that the case was moot 
because the employee had quit and said we are not ruling on the 
constitutionality of the law, which directly contradicts your 
testimony. Would you like to correct your testimony at this 
point?
    Ms. Porter. The Supreme Court ruled that the case that was 
brought, the person who brought the case legitimately had the 
right to do so, and they did not rule then on the 
constitutionality, if I understood.
    Mr. Nadler. Yes. So in other words, they said she did not 
have the right to bring the case because she was no longer an 
employee, and, therefore, the case was moot.
    Ms. Porter. Yes.
    Mr. Nadler. And then they said, ``We express no view on the 
correct interpretation of the statute or on the measure's 
constitutionality.'' Now in your testimony, you said they 
upheld the constitutionality. So would you like to correct your 
testimony at this point?
    Ms. Porter. Well, I may have misstated.
    Mr. Nadler. Okay.
    Ms. Porter. But----
    Mr. Nadler. Thank you very much. Thank you very much.
    Dr. Porter and Mr. Mujica, your organizations seek to 
promote, preserve, and strengthen the use of English. In 
striking down portions of the law that we just talked about the 
Alaska Supreme Court found that there are less restrictive ways 
to achieve your goal. I am sorry, we are talking about a 
different case here. The Alaska Supreme Court found that there 
are less restrictive ways to achieve your goal. The Court 
specifically noted as one example that, ``The State could 
create and fund programs promoting English as a second 
language.'' This is the Kritz case.
    What has your organization done to support programs to 
teach English? And would you agree to submit to the Committee 
the amounts spent by your organizations in each of the last 5 
years, say, on promoting English as a second language or other 
programs that teach English, and promoting passage of 
legislation declaring English as the official language of the 
United States or of States and local government?
    In other words, what have you done to promote teaching 
English as opposed to trying to get the law changed to prohibit 
the use of other languages?
    Mr. Mujica. Well, let me say the country is slightly larger 
for the money that we have. We do have a foundation that 
promotes English in other ways, not paying for lessons or 
anything. People can call in to the foundation and we would 
tell them where they can go for English classes.
    We have been trying for a long time to institute something 
like what Israel has, the old panning system. An old pan, and 
that would be actually the answer for this country. An old pan 
is a school where a new immigrant is sent for 6 months at the 
expense of the government. The immigrant cannot work. The 
immigrant goes for 6 months to be assimilated. They teach him 
or they teach her how to be an Israeli, how to function in 
Israel, how to learn Hebrew, et cetera. That would be a 
wonderful program in this country if every immigrant would have 
the chance of not working for 6 months.
    Mr. Nadler. Would you support an amendment asking for the 
funding to do that? That would have a little problem with the 
balanced budget amendment, I would think.
    Mr. Mujica. Maybe after January we could talk about that. 
[Laughter.]
    Mr. Nadler. Thank you.
    Mr. Franks. Thank you very much. And I would now recognize 
the distinguished gentleman from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I do thank all the 
witnesses for your testimony and for being here today.
    It was interesting to me to hear Mr. Mujica bring up the 
situation in Israel. I recall a meeting with several of the 
members of the cabinet in Israel a few years ago in the capital 
building across the street. And they told the narrative of how 
they had adopted Hebrew as the official language of Israel in 
1954. And Hebrew, having been a language that was used in 
prayer for thousands of years, but not commonly spoken, and 
essentially they think they said a dead language other than 
prayer. We brought it back to life was their message to us. And 
I said, why did you establish an official language for Israel? 
They formed Israel in 1948. Why did you establish an official 
language? And their answer was, we followed the model of the 
United States of America. You have been so successful with your 
assimilation because English is the common language of the 
United States, we wanted to do the same thing because we are 
bringing Jews from all over the world into Israel, and we 
wanted a language that identified us as a people.
    And what did they use in Entebbe, Hebrew to tell the 
Israelis get down out of the line of fire. And Benjamin 
Netanyahu's brother was killed in that raid, as you might know. 
So I appreciate the testimony and comments on that.
    I wanted to ask Senator Garcia, I do not speak but just a 
handful of words of Spanish, but if I were to have to learn 
Spanish in order to vote a Spanish ballot, how long do you 
think that would take me if I were sit down and focus on 
learning a Spanish ballot enough to be able to make those 
decisions?
    Mr. Garcia. Mr. Chairman, you would not have to learn 
Spanish.
    Mr. King. But my question is, though, if I were required to 
vote in Spanish, then how long would it take a person who is 
not literate in Spanish to learn enough to be able to read the 
ballot, read the names, and make a decision on which of those 
candidates they would vote for?
    Mr. Garcia. I am not following the question because the 
ballot is in English already. Why would you----
    Mr. King. You understand that you have said to me that 
people need to be able to vote in Spanish and in Creole as well 
as English. So just in your mind's eye, pick up one of those 
Spanish ballots that you identified here in your testimony, and 
then imagine someone who does not speak Spanish and think how 
much education does it take to learn that ballot in Spanish if 
you are an English speaker?
    Mr. Garcia. They would not need to read the Spanish ballot 
because it is already in English.
    Mr. King. I can see you are not going to answer my 
question. But I really expected more of an objective answer. 
And it troubles me that you will not do that.
    I wanted to follow up with another question. You said how 
will you communicate with your constituency. Well, first of 
all, you know, I think you know that this does not address the 
State functions in Florida. You have English as the official 
language in Florida. You have mad exceptions. I do not know 
what they are, but you alluded to them in your testimony. And I 
would point out that in the bill in Section 165, it says, 
``Nothing in this chapter shall be construed to prohibit a 
Member of Congress or any officer or agent of the Federal 
Government while performing official functions from 
communicating unofficially through any medium with another 
person in a language other than English, provided that or as 
long as official functions are performed in English.''
    And so that exception that is written for Federal officials 
I presume is also written for State officials within Florida 
within your official English law. Is that correct?
    Mr. Garcia. I would not know what the exceptions are, but I 
will tell you one of the problems that I see with the section 
that I addressed earlier. When you deal with any Federal 
programs that the State receives, as it was mentioned earlier, 
when we talk about Medicaid and those Medicaid applications, 
that could be potentially a problem for anyone that is going to 
fill out an application or have communications from my office 
with that constituency that may not understand or read English 
in a proficient manner.
    Mr. King. I am going to ask you to please go back and read 
the exceptions that are in this bill. I think they will reflect 
a lot of the practices in Florida. And I can tell you that in 
the State of Iowa, we do not have problems. I would have heard 
about them if anybody would have heard about those problems.
    And your concern that it would exclude a lot of your 
constituency, in listening to the testimony here, I do not 
think so. And I would turn to Mr. Mujica, who I know has been 
broadly engaged in this globally and nationally and within the 
States and ask, can you think of the number one problem that 
might have been created by any of the States that have adopted 
an official language or any of the other countries that have 
adopted official language? Have you seen that people cannot 
vote or that people cannot function?
    Mr. Mujica. None whatsoever. And I will tell you something 
about the so-called translations. I live in Maryland, and the 
ballots are in Spanish and English. When I read the English I 
can barely understand it. And then I go to the Spanish, and it 
is even worse. [Laughter.]
    When you translate things, you have no idea. And I think 
the people who translate have no idea what they said because 
things usually do not match. And if you get into a situation 
where you have to translate into 2 or 3 different languages--
luckily I speak 4--sometimes I do not understand any one of the 
4 translations.
    So when you have someone that translates something for a 
ballot, you know, especially those long things that you have to 
vote to change some zoning law or whatever, it is impossible to 
understand even in English.
    Mr. King. And in conclusion then, a State that chose the 
next leader of the free world in the year 2000, I think that 
illustrates the kind of confusion we could have if we do not 
have an official language that we vote in, we make decisions 
in, and direct the future of this country. And I thank all the 
witnesses, and I would yield back.
    Mr. Franks. I thank the gentleman, and I would yield to Mr. 
Scott for 5 minutes for questions.
    Mr. Scott. Thank you. Mr. Mujica, you indicated that the 
legislation does not prohibit use of other languages. If the 
bill were to pass, you could still conduct business in other 
languages. The language on page 3 says, ``Official functions of 
the government of the United States shall be conducted in 
English.'' They talk about a couple of exceptions, and then 
said that there is nothing to prevent you from communicating 
unofficially on the side, but the official functions of 
government shall be conducted in English.
    Mr. Mujica. Right, and I will give you a good example. Our 
function today here, I did not see in the invitation that it 
said that the hearing will be in English. We all assumed it 
would be in English, right? We did not need to know that.
    Mr. Scott. That is right.
    Mr. Mujica. Back when Mr. Conyers was speaking in Spanish, 
my first language is Spanish, I got about 5 percent of what he 
said. [Laughter.]
    And if each one of you would have spoken in the language of 
your ancestors, I would have left, you know. I would be gone 
because I would not know what we are talking about. So we do 
need the common language to understand each other.
    Mr. Scott. Are you suggesting that we need legislation to--
what problem are we trying to correct?
    Mr. Mujica. Why do you stop at a red light? Because we have 
something in writing that was passed that says you must stop at 
a red light.
    Mr. Scott. Okay. The legislation says official functions of 
the government of the United States shall be conducted as 
English, so the suggestion that you can----
    Mr. Mujica. This is an official function right now.
    Mr. Scott. Now if a bilingual clerk can explain better to a 
person in another language, what constructive purpose would be 
served by denying that clerk the ability to speak in the other 
language?
    Mr. Mujica. It depends on who does the translation, as I 
was telling you. How do you control what the translator said?
    Mr. Scott. Well, I do not know what we are trying to 
protect. I have not had any problems communicating with people. 
For people who speak English, is there anything in here to 
protect their right to use English? I mean, is there any threat 
to a person's right to go to a government agency and speak 
English?
    Mr. Mujica. No, there is no threat.
    Mr. Scott. There is not threat to that, okay. Senator 
Garcia, you indicated communicating with your constituents. And 
Dr. Porter used the term ``immigrant success.'' Is there any 
question in the minds of your constituents that immigration 
success depends on their ability to learn English?
    Mr. Garcia. No, there is no question about that. It is the 
opposite.
    Mr. Scott. And does the passage or failure of this 
legislation make any difference about whether or not they need 
to be alerted to that reality?
    Mr. Garcia. Absolutely not.
    Mr. Scott. Did you notice that there was no money in here 
to help people learn English?
    Mr. Garcia. I noticed that.
    Mr. Scott. You noticed that?
    Mr. Garcia. Yes.
    Mr. Scott. Are there waiting lists in your district for 
people who want to learn English that cannot because we do not 
put enough money into English classes?
    Mr. Garcia. Absolutely.
    Mr. Scott. You indicated that you do not want to be 
inflicted with this so that can communicate with your 
constituents the best possible. Do you not see a problem with 
Federal officials communicating with same constituents if they 
are restricted by this legislation?
    Mr. Garcia. Absolutely.
    Mr. Scott. Mr. Mujica, you indicated that 90 percent of the 
people responded that they wanted English as the official 
language of the United States?
    Mr. Mujica. According to the poll, yes.
    Mr. Scott. Now I noticed in the way you said it, the 
question was not shall there be an official language, but 
should English be the official language. What were the 
alternatives?
    Mr. Mujica. Well, the question is would you agree to make 
English the official language of the United States?
    Mr. Scott. As opposed to what? As opposed to what?
    Mr. Mujica. Well, you can only ask one question when you 
are calling somebody.
    Mr. Scott. Okay. Well, I mean, say, as opposed to Spanish, 
as opposed to----
    Mr. Mujica. As to opposed to any language.
    Mr. Scott. Okay. Well, the question was not whether or not 
there shall be an official language, but whether English shall 
be the official language. The only thing surprising about that 
part is----
    Mr. Mujica. Right, because the great majority of Americans 
speak English, so we are not calling somebody referring to 
Chinese.
    Mr. Scott. And was the poll conducted in English?
    Mr. Mujica. Pardon? Yes. [Laughter.]
    Mr. Scott. So to answer anything other than yes, you would 
have to be speaking to somebody in English and suggested maybe 
something else ought to be the official language.
    Mr. Mujica. Well, we were calling Americans regardless. If 
they call my house, they are calling an American house.
    Mr. Scott. But the question was not whether or not there 
should be an official language, but whether English should be 
that language. So we want to be clear as to what the 
alternatives were. And obviously the alternatives would be 
absolutely absurd.
    I yield back, Mr. Chairman.
    Mr. Franks. Alright. Well, I want to thank you all for 
coming today.
    Mr. Nadler. Mr. Chairman?
    Mr. Franks. Mr. Nadler?
    Mr. Nadler. I just had one point to correct the record. 
Israel has two official languages, English and--I am sorry, 
Hebrew and Arabic. And at the raid on Entebbe when they warned 
the hostages that we are freeing you, get down, they used many 
different languages. Thank you.
    Mr. Franks. All right. Well, again, I want to thank all of 
you for coming today. It has been an interesting hearing.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond to as promptly as possible so that they can have their 
answers be made part of the record.
    Without objection, all Members will have 5 legislative days 
within which to submit additional materials for inclusion in 
the record.
    And with that, again I thank the witnesses and thank the 
Members and observers. And this hearing is now adjourned.
    [Whereupon, at 12:59 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

      Prepared Statement of the Honorable Charles A. Gonzalez, a 
           Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
